Department of Health and Human Servces

        OFFICE OF

   INSPECTOR GENERAL





  FOllOW- UP ON AFDC ABSENT

              PARENTS





                Richard P. Kusserow
                INSPECTOR GENERA

                        -81270
                         EXECUTIVE SUMMAR 

PURE
This inspection was conducted to follow up on a series of 1987 studies related to
child support enforcement for Aid to Families With Dependent Chidren (AFDC)
cases.

BACKGROUN

Our prior studies found that AFDC chid support collections could be increased
signifcantly if child support enforcement agencies (called IV-D agencies) would
systematically review the earnings of absent parents. We found that while absent
parents may have little or no earnngs when AFDC was established , their earnings
did increase over time. In this study, we wanted to determne what changes had
occurred in the cases previously studied , both in the child support being paid , and in
the abilty of the absent parent to make child support payments.

MEODOLOY
We repeated our earlier methodology of tracing absent parent earngs through
Social Security Admistration (SSA) records. We then followed up with the
IV- D agencies who, based on our previous studies, had received employer
identification and employer address inormation for 1 277 absent parents who had
earned over $10, 000 in 1985. We examied the IV- D records to determe whether
AFDC payments were stil being made , what the current court order was , what
present arrearages exist , and whether automatic wage withholdig of chid support
was in place.

FIINGS
Mos AFDC absen paen
1986
                                over $10,   ea     at
                Als, moe AFDC absen paen cr th $10, 00
                                                             00 in          198      ea le tht amun
                                                    pa                                               theshold each
        an        198

year.    Avemge
                     for the absen
                         ef                                          ined            frm   $17,787    in   198

$19, 522 in 198

        W-D       age hae take actin on some of th                                cases we refered to      th vi th
                                                                                                 th are
Th


Ofe of Ch                     Suppo Enforcem                                        However
          th st AFDC cases whih need to be re-ope for pole actn
                                                 (OCSE) in           1987

cases                   of
                  chi suport orc
         ma

esblih, mo,                    or enforce
RECOMMATIONS
We recognize the substantive actions that the Administration for Children and
Families (ACF) has taken in implementing the Family Support Act of 1988. These
activities are particularly significant in their attempt to establish a more systematic
approach to review both current and older child support cases. The IV- D agencies
can obtain absent parent wage information from the Internal Revenue Servce (IRS)
via Project 1099 ,   and are required annually to query the Federal Parent Locator
Servce for absent parent location information. However, these actions individually
fall short of gatherig the data necessary to impose wage withholding, or establish
health insurance for AFDC children who must otherwse rely on Medicaid.

RECOMMENDATION               OCSE shoul peorm an
                          1: Th

or IRS record relyg on data sumied by th
                                                               anl
                                                           data match wi SSA
                                                     OCSE shoul reqe all
                                            un
                                                 State.   Th

State to partpate in the annl match      a State perform it own
more    freq  matck States peormg           th
                                        own match shoul be able to
absen paren wages and emploer frm relible soures           li
                                                      State'         emplo
                                                                          all
                                                                       record.
                                                                               id
This report , and prior work of the Offce of Inspector General in this area
demonstrates the effectiveness of systematically trackig absent parent earngs
through matches with SSA records. Other records , such as IRS or State employment
records , could be equally ' usefu in determg absent parent employers , wages , and
location.

We believe this annual data match is an additional , but signcant , tool for OCSE to
use in conjunction with performance standards and periodic review of the adequacy
of court orders. The performance standards and the periodic adequacy review of
court orders may not identif all cases where AFDC absent parents have the abilty
to signficantly contribute to the support of thier children receiving   welfare.


                                          sho ene th W-D agen use
                                                  st
RECOMMENDATION            2. Th    OCSE
informn in th annl match to esblih, mo, an enforce cou ord
apprpr in accorde wi th peorme             an th Fami Support Act.
Information provided by the annual match may provide location information on
absent parents whose wherabouts were previously unown. Where this occurs , a
support order should be established or enforced in accordance with the performance
standards. The OCSE should issue gudance to IV-D agencies requig that
inormation from the annual data match be considered when reviewig support
orders in accordance with this provision.


These recommendations further the Secretary s objective of having absent parents assume
personal responsibilty for their children, especially for those absent parents whose
children are receiving welfare.

DEPARTMAL COMM
The ACF concurs there is great potential for increasing child support collections by
means of a systematic review of all cases for location and asset information.
However , ACF does not endorse our recommendation for an annual data match
since it goes beyond the requirements of the Family Support Act of 1988. The
Assistant Secretary for Planning and Evaluation questions whether the recommended
data match would provide useful information. The Assistant Secretary for
Management and Budget comments that without cost data and cost-effectiveness
measures being provided , it is questionable that the earnings of AFDC absent
parents are sufficient to make their pursuit worthwhile.

OIG REPONSE TO DEPARTMAL                    COMM
In 1987 , we recommended an annual data match and estimated that AFDC child
support collections would be increased by $307 millon annually. The OCSE
concurred with the need for an active , aggressive approach to increasing collections
on AFDC cases.

We believe an annual data match is vital to enforcing the Chid Support
Enforcement Amendments of 1984 , which requies mandatory wage withholding of
child support where the support is at least 30 days in arrears. These amendments
also requie child support orders provide health insurance for chidren where the
absent parent has access to that coverage.

The curent requirement  that States make an annual attempt to locate absent
parents through the Federal Parent Locator Servce falls short of gathering the data
necessary to impose wage withholding, or to establish health insurance for AFDC
chidren who must otherwse rely on Medicaid. We believe that an annual data
match might replace the current requiement since it provides more inormation to
the       agency.

State IV-D  agencies also can access IRS data through Project 1099 , which provides
both location and wage inormation. However, this data can neither be disclosed to
a thid par, nor be used to modif chid support cour orders. The recommended
data match avoids these pitfalls since SSA data can be used for chid   support
enforcement puroses.


The longitudial nature of this inspection shows the value of the SSA data over time.
The age of the data does not appear to   dish    its use as an indicator of which
absent parents have earned , and continue to earn at signcant levels. Further work
can then be pursued on individual cases to obtai up to date earngs inormation.
However , if more curren data can be obtained instead of SSA data, we support its
use. What is important is the tapping of all earngs data for absent parents, and
performg this fuction on a regular, routine basis.
                                              ........................................
                                                     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..
                        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
                                                                                              . .. .. .. .. .. .. .. ... .. .. .. . ..




                               TABLE OF CONTENTS

                                                                                                                                PAGE
          EXECUTIV SUMY
          INTODUCfION . . . . . . . .                                                                                            . . . 1




             Purpose                                                                     . . . . . . . . . . . . . . . 1


             Background. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
             Methodology                                                                       ............2
          FINDINGS                                                                                   ................4
             Most AFDC absent parents earng over $10 00 in 1985 earned at least
             that amount in 1986 and 1987. Also , more AFC absent parents cross
             that $10 000 threshold each year. Average earnings for these absent parents
             increased from $17 787 in 1985 to $19 522 in 1987 .................... 4


             The IV- D agencies have taken action on some of the cases we referred to
             them via OCSE in 1987. However, there are numerous cases, many of them
             stil AFDC cases, which need to be re-opened for possible action to establish
             modif, or enforce child support orders . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
          RECOMMNDATIONS

          DEPARTMNTAL COMMNTS

          OIG RESPONSE TO DEPARTMNTAL COMMNTS

          APPENDICES

             Appendi A: Agency Comments on Draf Report                                      . . . . . . . . . . . . . . . . .. A-
                      Admstration for Chidren                  . . . . . . . . . . . . . . . . . . . . A-
                                                                 and Famiies
                      Assistant Secretary for Plannng and Evaluation . . . . . . . . . . . . . .. A-
                      Assistant Secretary for Management and Budget . . . . . . . . . . . . . . . A-

             Appendi B: Offce of Inspector General Response to
                      Agency Comments
. . . . . . . . . . . . . . .
                            INTRODUCTION

PUROSE
This inspection was conducted to follow up on a      series of 1987 studies related to child
support enforcement for Aid to Familes With Dependent Children (AFDC) cases. These
studies showed that many absent parents had the financial abilty to significantly contribute
to the support of their AFDC children. In this inspection, we wanted to determine what
changes had occurred in the cases previously studied , both in the child support being paid
and in the abilty of the absent parent to make child support payments.

BACKGROUN
Our 1987 studies found that AFDC child support collections could be increased signficantly
if child support enforcement agencies (called IV- D agencies) would systematically review
the earnings of absent parents. We found that while absent parents may have little or no
earnngs when AFDC was established , their earnings did increase over time.

In our 1987 studies , we examined over 4 60 cases where (1) there was no support order
in place; or , (2) the monthly support order in place was $50 or less per child; or , (3)
arrears existed. The IV- agency had a Social Security Number (SSN) for the absent
parent in each case we reviewed.



Welfare payments had been made for at least 2 years in all of the sample cases.         These
were perceived to be the " hard-core " AFC cases ,   dicult to   work, and unliely to   result
in a paying child support order , other than a mial one.
We obtained 1985 earngs data on the               cases from the Social Security
                                                sample
Admiistration (SSA), and furnshed this to the Offce of Chid Support Enforcement
(OCSE) in the Adminstration for Chdren and Familes (ACF). They in turn passed on
this information to the IV -D agencies. Specifc employer identifcation and address were
furnshed on all cases where the absent parent earned at least $10 00 in 1985.

In response to these inspections , OCSE arranged for chid support agencies to access
Internal Revenue Servce (IRS) records. The IRS data would not only provide earnings
and employer data, but also furnsh a recent home address      for the absent parent.
The Family Support Act of 1988 also deals with the problems raised in these reports by
setting standards for paternity establishment , requiring periodic review of court orders for
adequacy, and mandating that the withholding of child support from absent parents ' wages
be included in all new and modified court orders. States must incrementally increase their
paternity establishments if not establishing paternities at the average level for all States.
States must also review all AFDC cases every 3 years to determine whether the existing
court order is appropriate with State guidelines. The OCSE has proposed regulations to
address these requirements.

The OCSE also issued Standards for Program Operations , (usually called performance
standards) for IV- D agencies effective October 1990. These standards specify minimum
case actions for IV-   agencies to take , and the timeframes in which to perform these
actions. Some standards are for locating the absent parent , taking paternity actions once
an absent parent has been located ,
                                establishing and enforcing support obligations , and for
closing cases. The Federal AFDC match to States would be reduced from 1 to 5 percent
if a State is not in substantial compliance with the performance standards.

Prospectively, OCSE auditors will use these standards when they examine sample cases
to determine whether reasonable efforts to locate absent parents have been made by the
IV- D agencies. And once located , OCSE wil determine whether efforts have been made
to establish paternity, modif low court orders , enforce existing court orders by collecting
outstanding arrears , and establish wage withholding and medical support. The performance
standards should also prevent cases being closed prematurely.



METHODOLOY
We repeated our earlier methodology of tracing absent parent earnings through SSA
records. We gathered     1986 and 1987 earnings information on the 4   637 absent parents
we had previously reported on when we used their 1985 earngs.         We now had earnings
information for 1985 , 1986   , and 1987.
We then followed up with the IV- agencies who , based on our previous studies, had
received employer identifcation and employer address inormation for 1 277 absent parents
who had eared    over $10   00 in 1985.
We examied the IV-D records to determe whether AFDC payments were stil being
made , what the curent court order was , what present arrearages exist , and whether
automatic wage withholdig of chid support was in      place.
Current case data was obtained from the 12 IV- agencies included in our earlier
inspections. Those contacted were: Maricopa County, Arzona; Adams County, Colorado;
Hartford , Connecticut; Hilsborough County, Florida; Topeka , Kansas; Prince Georges
County, Maryland; Hennepin County, Minnesota; Suffolk County, New York; Cuyahoga
County, Ohio; San Antonio , Texas; Pierce County, Washington; and Dane County,
Wisconsin.
                                  FINDINGS

FIING 1:        Most   AF absnt parents earg         over $10   00 in 198 eared at least
that amount in 198 and 198. Al, more      AF           absent parents cros that $10
theshold each   year. Averae eargs for thes absent parents increasd from          $17 787
in 198 to   $19 522 in 198.


Absent parents who earned over $10 000 in 1985 usually earned at least     that amount in
subsequent years. Six- two percent earned over $10, 00 in all 3 years.

Seventy- five percent of those who earned over $10 00     earned at least that amount in
1986. Nearly 80 percent of those   earning over   $10, 00 in 1986 earned at that level in
1987.

Large increases in earnings were enjoyed by some AFDC absent parents. Six- two showed
gains of more than $20 00 from 1985 to 1987. Two absent parents increased their yearly
earnings by more than $50 000 in this period.

The following chart ilustrates the continued earning potential of this group once they
began earning at levels above the minimum wage. Each year more of the " hard-core
AFDC cases become cases where child support can now be collected. These are cases
where modification of low court orders, automatic wage withholding, medical support , and
collection of arrears can be instituted.


Char 1

Not only are more of these                                                   their
                                 absent parents able to contribute to the support of
children ,   their abilty to pay at  levels is also evident. The following chart
                                         higher
demonstrates that more AFDC absent parents are earnng wages at higher levels each
year.


Char 2





                       MORE ABSENT PARENTS ARE

                       EARNING AT HIGHER LEVELS*

                           (1985 N-1. 277;1986 N-1. 349;1987 N-1. 426)

          Earnings

          over $30K                131
                                         182


          $25-30K
                                                                         Year
                                                                         EH 1985
          $20-25K
                                                                         fZ 1986
                                                                                1987
             $15-20K


             $10-15K

                             100         200 300 400 500                        600    700
                                           Number of Absent Parents
      -For those earning )$10K
                                        ........................................................""".................................."""''''''''''''''''''''
                                                                                                     ..............       ...........................................
                                                                                                               ''''''''''''''''''''''''''$'




Of special concern are the 269 absent parents in the sample who earned over $25 000 in
1987. Eighty-eight percent of them (236)                                            had earned over $10 000 in 1985 ,                                                   so the IV-
agencies were aware of their earnings abilty, and the probable employer of these absent
parents. These absent parents enjoyed a significant growth in their earnings from 1985 to
1987 of almost 50 percent. The following chart ilustrates this rise.

  Cha 3





                                                              EARNINGS GROWTH
                               FOR THOSE WITH INCOME OVER $25K IN 1987
                                                                                        (N-269)




                      35 ..............................................................................."""'''                                 35-,--15 ....



                      30 .............

                                                                                            286

                      25........



                      20 .......................................................................





                        1985                                                               1986                                                                  1987
                                                                                        YEAR




There are serious inequities in the payment of chid support by absent parents who earn
over $25, 00 yearly. Fifeen percent of the AFC absent parents with unodied court
orders earned over $25 00 in 1987. The monthly cour order for this group averages $49.
These absent parents averaged nearly $36 00 in income that year. We found a glarig
example of the imediate need to modi cour orders in one absent parent who earned
over $65 000 and is paying an $80 monthly support order for his AFC chid.


Absent parents who earned over $25, 00                                           in 1987 and who are in arrears owe more than
   500 in child support on average. Fif-five percent of the AFC absent parents in this
group do not have an automatic wage withholding of their chid support obligation. Thir­
nine percent of those without wage withholding had increased their chid support debt since
our prior studies ,    despite their substantial earngs.
FIING 2: The IV-D agencies have taen acton on some of the caes we referred to
them via OCE in 198. However, there are numerous        ca many of them sti
caes, which nee to be re-opened for poible acton to establih, mod, or enforce chid
support orders.

The following summary depicts the IV- D activity on the information furnished.

Char 4

PATERNI7 CAES


    Paternty has been established , and child support has been ordered on 24 percent
    of the cases referred where the absent parent earned over $10 00 in 1985.
    However , the child support ordered does not appear to be commensurate with the
    absent parent earnings. In one extreme case , an absent parent earning over $32 000
    was ordered to pay only $60 monthly child support. His child remains on AFDC.

    The absent parents ' 1987 earnings in these paternity establishment cases averaged
    $16 317. Using the Wisconsin child support guidelines for one child as an example
    a monthly support order corresponding to these earnings would be $231.
    contrast , the actual court orders in these cases average $182 monthly.

    Of the paternity cases that remain open at the IV- D agencies ,                                 31 percent are
    AFDC cases. The average 1987 absent parent earnings on the open AFDC cases
    was $19 039; the non-AFDC                 cases averaged $19 018.

MODIFICATION CAES

    The IV-    agencies obtained upward modifications of child support orders on 29
    percent of the cases where the absent parent earned over $10 00 in 1985. The
    average amount of the court order on these cases more than doubled , from $84
    to $188. (We had referred cases to OCSE for absent parents with this earnings
    level and a monthly child support order of less than $50 per child. In spite of
    these modifications , more than half remain AFDC cases.


    The increased court orders stil did not keep pace with absent parent earnings.
    The average AFDC order increased from $84 to $167 monthly. One striking
    example of this inequity was an absent parent who earned over $30 00 in 1985
    and above that level in 1986 and 1987. His cour order did increase -but only from
    $10 to $25 monthly for his AFC chid.




    FIVe of thecu  wher paterty had      be  established and chid support awarded, were in Cuyahoga County, Ohio.
    county be
    had refem to
                paicipating in a paternity demonstration project in Apri 198. It is unow whether any of the
                   Cuog    County were included in this project.
                                                                                                                ca
    We us the Wisnsin chd support gudelies for exmple        purp   sice they ar among the simplest State guidelines to
    apply. Use of other State guidelines would reult in lesr or grter month chd support obligatioDl. The Wisnsin
    guidelines were alsus   in our original AFC chid support report for compan        pur.
    One of our sample counties, Suffolk Nev York conducted a    spe      project to mod cour orders in  ea   1988. They
    limited their scpe toca      where automatic wage withholding of chid support wa alrdy takig place. Twenty percent
    of the AFC   ca     in their projec were clos as a reult of their modifcation effort. It is unknow whether any of the
    ca    in our sample were included in their project.
   Significantly, on the cases that are no longer AFDC cases and a modification
   occurred , the average monthly court order rose from $85 to over $217. On pending
   cases where the 1987 absent parent earnings remain above $10 000 , more than half
   are current AFDC cases. The average absent parent earnings increased from
   $15 862 to $19 777 for this group. Increasing the AFDC orders using the Wisconsin
   guidelines for these cases would raise the average monthly support payment for one
   child from $83 to $280.

   The current non-AFDC cases where no increase has taken place , show a rise in
   average earnings from $18 111 to $22 667 during this period. The average non-
   AFDC order for these cases would climb from $86 to $321 for one child , if these
   court orders were modified using the Wisconsin guidelines.

ARGE CASES
   The IV - D agencies have collected all the arrears on 17 percent of the cases
   identified in our earlier studies. The arrears collected in these cases averaged
      026. Additionally, arrears have decreased on another 35 percent of the cases.
   The average decrease in chid support owed in these cases has been substantial
      347 in 1987 down to $2 845 today.

   However , child support arrears have increased for 13 percent of the absent parents
   despite their earnings increasing significantly. This group averaged $15 464 in 1985
   earnings , and owed an average of $5 66 in chid support. By 1987 , their average
   earnngs had increased 26 percent to $19 492. Their arrears had risen 62 percent
   to over $9 00. One particular egregious case showed an absent parent who earned
   over $20 00 in 1985 ,   and over $25   00 in the   two subsequent years. During  this
   time his arrears increased by more than $7 00         for his two AFDC-children.
   Although he was   workig in the same State         where his children live , no wage
   withholding of his wages has been effected.

   The current cases with arrears total more than $5.     mion owed in child support.
   The AFC support stil owed on these cases is more than $4.4 milion.

   Wage withholdig of chid support is now frequently         used by   agencies to
   collect curent support due and recover arrears. Although we did not gather
   frequency of wage withholdig data in our earlier studies, this automatic payroll
   deduction is now in place on 26 percent of the cases with arrears.

   The absent parents from whom current support is being collected by wage
   withholding have reduced their total arrears from $960 629 to $842 284 since 1987.
   Likewise, the arrears only cases where wage withholdig is in place have shown a
   decrease in arrears from $111 182 to $74 519.
                            RECOMMENDATIONS

The IV- D agencies did take some actions to establish , modify and enforce child support
orders for AFC children identified in our prior studies. However, fewer than one- fourth
of the paternity referrals led to a court order, 7 of 10 cases with low orders remain
unmodified , and only half of the arrearage referrals have resulted in lower arrears than
3 years ago. Although these cases were perceived as the " hard-core " AFDC child support
cases , there is now substantial evidence that many of these absent parents now , or in the
future , will be able to signficantly contribute to their children s support. We recognize that
paternity cannot be established on all cases , and that other absent parent familal
obligations will mitigate against a modified court order in some cases.

The IV- D agencies have an ongoing need to know absent parent wages and employers
which a data match can provide. Ths information enables the IV- D agencies to enforce
child support orders as required by the Chid Support Enforcement Amendments of 1984
which call for imposing automatic wage withholding whenever chid support is in arrears
for 30 days. Medical insurance provided by the absent parents ' employer often covers
children receiving child support. Private health insurance would eliminate costly Medicaid
outlays for those AFC children covered.

We recognize the substantive            actions that the        Admnistration for Chdren and Familes
(ACF) has taken in implementing               the Family Support Act of      1988. These activities are
particularly significant in their attempt to establish a more systematic approach to review
both current and older child support cases. The IV- D agencies can obtain absent parent
wage information from Internal Revenue Servce (IRS) via Project 1099, and are required
annually to query the Federal Parent Locator Servce for absent parent location
information. However, these actions individually fall short of gatherig the data necessary
to impose wage withholdig, or              establish health insurance for AFDC children who must
otherwse rely on Medicaid.

RECOMMATION 1: The OCE should perform an anua data match with SSA
or IR recrds       relyg on data submitted by the                   States. The OCE should                requie al
States to pacite  in the anua match unes a State perform its ow anua or more
frequent, match State performg their ow match should be able to identi al absent
parent wa   and employers from reliable source lie State' employent recrds.

Ths report, and prior work of the OIG in this area, demonstrates     the effectiveness of
systematically trackig absent parent earnings through matches with SSA records. Other
records , such as IRS or State employment records, could be equally useful in determng
absent parent employers , wages , and location.



       Prior DIG studies   point out the considerable   sags that can be achieved in tbes intance.   See " Child Support
       Enforcementfird Pany    Medical Liabilty," OAI-07-8-05, Septembe 1987, and "Cordination of Third Pany Liability
       Information between Chid Support Enforcement and Medicaid,   " OAI-0-8-0," Decmbe 1989.
We believe this annual data match is an additional , but significant tool for OCSE to use
in conjunction with performance standards and the periodic review of adequacy of the
court orders. The data match is necessary since the performance standards and the
periodic adequacy review of court orders may not identify all cases where the AFDC
absent parent has the abilty to        significantly contribute to the support      of his children
receiving welfare.



The annual data match should identify to IV- agencies those absent parents without
court orders , with low court orders , or with arrears who are not having wages withheld
automatically or who are not reducing their arrears. The IV- D agency actions required
by the performance standards or the adequacy review would then ensue on appropriate
cases. Inaction on these cases could serve as an early      warning of possible noncompliance
with the OCSE performance standards or" the Family Support Act.

RECOMMATION 2: The OCE should                       ensure that IV-D   agencies us inormation
in the anua match to establih, mod,              and enforce cour orders as appropriate ,         in
accrdace with the performance stadads            and   the Fam Support Act

The performance standards require IV-      agencies to take specific actions to locate an
absent parent in paternity cases , and to begi the legal processes to establish paternity
after the absent parent has been        located. Likewise , the performance standards also
mandate minimum activities to enforce cases in arrears. Both tyes of cases require the
IV- D agencies to act withi specifed timeframes dependig on the case circumstances.

Information provided by the annual match may provide location information on absent
parents whose wherabouts were previously unown. Where this occurs, a support order
should be established  or enforced in accordance with the performance standards. The
current requirement that States make an annual attempt to locate absent parents falls short
of gathering the data necessary to impose wage withholdig, or establish health insurance
for AFDC children. We believe that an annual data match might replace the current
requirement since it provides more information to the IV-D agency.

In addition ,a key provision of the Famiy Support Act requires IV- D agencies , beginning
October   1993 , to review all AFC orders every 36 months (and non-AFDC orders every
36 months on request of      either parent) and make revisions to the orders , where
appropriate. The OCSE has proposed reguations defing this review as " an objective
evaluation of complete , accurate, up-to- date information necessary for application of the
State s guidelies for support. The OCSE should issue gudance to IV- agencies
requing that inormation from the annual data match be considered when reviewing
support orders in accordance with this provision.

These recommendations further the Secretary s objective of having absent            parents   assume
personal responsibility for   their children, especially for those absent parents   whose children
are receiving welfare.

DEPARTMAL COMM
The ACF concurs there is great potential for increasing child support collections by means
of a systematic review of all cases for location and asset information. However , ACF does
not endorse our recommendation for an annual data match since it goes beyond the
requirements of the Family Support Act of 1988. The Assistant Secretary for Planning and
Evaluation questions whether the recommended data match would provide useful
information. The Assistant Secretary for Management and Budget comments that without
cost data and cost-effectiveness measures being provided , it is questionable that the
earnings of AFDC absent parents are sufcient to make their pursuit worthwhile.

OIG REPONSE TO DEPARTMAL                    COMM
In 1987 ,we recommended an annual data match and estimated that AFDC child support
collections would be increased by $307 millon annually. The OCSE concurred with the
need for an active , aggessive approach to increasing collections on AFDC cases.

We believe an annual data match is vital to enforcing the Chid Support Enforcement
Amendments of 1984 , which requires mandatory wage withholding of child support where
the support is at least 30 days in arrears. These amendments also require child support
orders provide health insurance for children where the absent parent has access to that
coverage.

The current requirement that States make an annual attempt to locate absent parents
through the Federal Parent Locator Servce falls short of gatherig the data necessary to
impose wage withholdig, or to establish health insurance for AFDC children who must
otherwse rely on Medicaid. We believe that an annual data match might replace the
current requirement since it provides more inormation to the IV- D agency.

State IV-D   agencies also can access IRS data through Project 109 , which provides both
location and wage information. However, this data can neither be disclosed to a third
part, nor be used to modify chid support cour orders. The recommended data match
avoids these pitfalls since SSA data can be used for chid   support enforcement purposes.


The longitudial nature of this inspection shows the value of the SSA data over time.
The age of the data does not appear to diish its use as an indicator of which absent
parents have eared, and continue to earn at signcant levels. However , if more current
data can be obtaied instead of SSA data, we support its use. What is important is the
tapping of all earngs data for absent parents , and performg this fuction on a reguar
routine basis.
       APPENDIX A

AGENCY COMM ON TI DRA REORT
" ,L&",("I'



              DEPARTMENT Of HEALTH &. HUMAN SERVICES


                                                              AOMINISTRATION FOR CHILDREN ANti FAMILIES
                                                              370 L' Enfanl PromenaOe, S,
                                                              WashIngton ,   D. C.   204


              Date:           June ll, 1991


              To:             RichArd P. Kusserow
                              Inspector General


              lIro1U:         JQ Anne S. BArnhart
                              Assistant Secretary

                                  for Children and F il ies
              Subj ect :      Commen . on Oftio. of Inspector General Draft
                              Report, "Follow-Up on Aroc Absent Parents"


              We aqree with the casic find1ns that ther is a qrGAt aGal of

              potential fQr increasinq child sUPPQrt collections through

              systematic case tollow-up to establish, upwardly modify and/or

                     force orders as appropriate. However, We disagree with your

              specific recommen4atione requirinq mandatory annual 4atA

                       che. with IRS and aSA and ensuring that the, information
              garnered         rough such matches is utilized tQ e8 ab11sh, modlfy
                     enforce oourt or4ers.
              The Office of Child support Enforcement (OCSE) requires states

              tQ utilize all po..ible resources at the Stat. and federal
              level ana move .. quiCkly a. po.sible to e.ta li8h ana/or

              enforce order. and get in.quita le orders modified.
              19a9, QCS2 1.s e4 reiUlations prescribinq stan4ar4. for In AU9us
              operations which state IV-D a9 ncies must meet.            program
                                                               .. These
              impose requirement, and time frame. for takinq appropriaterules
              aQtions, includinq locatinq ab.ent parents, .8tabliShment of

                    t obliqa ion. ..tab11shment   ot    ernity and enforcement
              of suppo t obligat!ons. Stat.s were required to meet these

              standards by Oc ob. 1, 19'0.

              Our specifio oomment. concerning the report I .                recommendations
              follow: .
              QIq R           .nda

               ::A                        erm ,
     :l :i                     :h !SA OJ:
                                                             1n:



                        Ooq
              Thi. recommendation retleot. our po.1tion that a .yatematic

              r.v1.w of looation and ..s.t information .houl

                                                              b. conducted in

                                                     A­
Paqe 2 - Mr. Richard Xusserow


all cases to establish an                    enforce orders as well as determine

which should 
               e tarqetea tor mod1fioation. We     cannot, hQwever
aqree with your recommendation, since i qoes beyonQ the revia

and mod1ticat1on requirements speoified in 
                  he Family s pport
Act       ot     1988.
The Act specifies that State guidelines for setting child

support award amounts be used as a rebuttable presumption in

estaclishinq the amount of ch.ild support orders and that these
         elines be reviewed at least every four years to ensure

their appliQ tion results in appropriate child support award

amounts. The Act a180 r$quires that State. must have & plan

        icat1nq how and when child aupport oraGrs in effect in the

States are to be
      .viewea and adjusted. Beqinninq October 13;-
1993, States must review child: Gupport orders in AFDC IV-I:
cases no lat.er than 3, 6 months after t.h.e order., or the most
recent review, unless review would. not b' G in the best interest
of the child. In non-AFDC cases, state. are required to review

order. upon request. of either parent.        justments to order.
are to be 1n accordance with State quid.lin.. for setting child

.uppo t award amount.. F$deral        equ1ation8 imp1ementinq
preau ptive quiQel1ne requirements were issued May 15, 1991.
 OCSE nas expan ed the availability, scope and efticiency of

 resources available to a8.1. states in their performance of

 tne functions associated with order ..tabliahment, moditication

 an4 enforcement. Th... resourc.. include the Federal Parent

 Locator Service (rpts) and project 1099.
  he FiLS makes it possiDle for tne States to aocess SSA and

 IRS intormat1on on & weaklY ba81s (quarterly tQ= the IRS

 the absent parent (AP) social security number (SSN) is unknown)
 and 49 state Imployment Security Aqencies (SESAS) on a 

 quarterly basis. SSA provide. e=ployer names and addresses.

 They will not, because ot an IRS contidentiality requirement,
 prQvide wa9. data to the FPLS. Inatead, wage intormation trorn
 IRS come. through project 1099. IRS provides individuals'

 name. and adgr..... from their latest tax                return.
                                                           SESAs
   cvi4. the most ourren employer address and quarterly wage

 information. The FPLS i. currently limited to conductinq four

 croe.matohe. and i. limited in the numb. of ca... that can be

  proces..d. Over 3 million casas were submitted to the FPLS in
 FY'9C. over 1. 5 million ca... have been submitted to date this
 fiscal y.ar.


  oes! Project 1099 provid.. the Stat.. with quarterly access to

  IRS 1099 intormation, includinq AP addre.., waqe and asset

  information a. well aa employer and financial institution

  a4dre.. in:Orm
  FY , 90 .
                                    ion.
                        over 1. 8 million ca..s were submitted in
                   h1. haa incre.sed 
     c over 1. 7 mill ien ca.e. 8ubmi t te4
  for the tirst two quarter. of this tiscal year. To                participate


                                              A­
                   .j       ~~~                                           :,:



Page 3 - Mr. Richard Kusserow


in Proj eet 1099 , the State must certify that it meets the

stringent IRS requirements regar inq the safeguarding of

information. In    addition, the St te must certify that the
information will not be disclosed to third parties or in

11t1qation relatinq to the establishment and enforcement of

child support oDliqations. For this reason, we do not mandate
uaage ot Project 1099.
OIG Recommendation:
The OC9E           pure         V-D aqeD2es ue
 nf2r
 ht annual mlltch:Jq elt,l;l 18J mQ
a. a       pr1tt      accordance with t    rf rm
                                                 ce c
                                                 nce & andar    t. t "r
and tha Fami y S      ort Ac
OCS! Comment
OCSE au itors regularly review the performance of the States
meeting the requirements 

                                          the Child Support !nforceme

Proiram.                               ot
                        Ensuring that the performance standards aspeot of the
Act are ca rie4 out                roperly wo ld be a routine part of this

process.
In addition, we are constantly aisseminatin9 information

memoranda, action transmittals , "Dear Collea

                                               e" letters,
newslett. s, ete., in an effort to provide states  with as much
information .s possible on how to pursue child eupport in the

m08t .ftective and $tt1cient way pO..ible. We
similar information in this 
                   will disseminate

                            instance, when apprcpriate.





                                     A ­

(Jl
.If'''''Q
                  DEPARTMENT OF HEALTH $. HUMAN SERVICES                     Ofce of the


                                                                             Washington ,
                                                                                            Secretary




                                                                                            DC. 20201


            TO:          Richard P. Kusserow
                         Inspector General

            FROM:        Assistant Secretary for
                         Planning and Evaluation

            SUBJECT :    OIG Draft Report:     Follow-      on " JaC   Aba        aren1:
                         OEI-05-89-01270

            As requested, we have reviewed your draft report. We recommend
            that additional information be presented in the Background,
            Methodology, and Findings sections and that serious consideration

            be given to revising the report recommendations.


            Backaround
            Information should be added to this section which indicates that

            in the period under review--1985 through 1987--many of the Child

            Support Enforcement requirements discussed were not yet in

            effect.  Guidelines were not mandatory until October 1989. Use
            of wage withholding for arrears cases was not fully implemented

            in all states until FY     1988.
                                          Periodic review and adjustment for
            AFDC cases is not mandatory until October            1993.
                                                             While it is true
            that some states did undertake these activities prior to

            implementation of the 1984 Child Support Amendments and 1988

            Family Support Act, most states were not required to use these

            tools or practices until the federal requirement went into

            effect.  This information would clarify why some states may not
            have followed up on all information provided to them by the IG' s

            office.
            Methodoloq
            More detailed information is needed in this section about the

            timing and flow of information from the IG' s office back to the

            IV-D agencies. Dates need to be provided regarding when the
            information was provided and when the re-review was conducted.

            Based on the information provided, it is not clear whether IV-D

            agencies could have acted (or could have completed action) based

            on the information provided by the IG'         s office. It
                                                                 would also be
            helpful to identify the " age" of the information provided to the

            states.  Although not indicated in the report, it would appear
            that the earnings and employment information may have been two to

            three years old before it was provided to the state and may no

            longer have been useful for follow-up purposes.





                                                 A­
Page 2 - Richard P. Kusserow



Findinas
     While the first finding may be factually correct, the

     presentation of the information could easily lead one to

     assume that most AFDC absent fathers have substantial

     income. Your data shows this is not correct. The text

     should more clearly indicate that most AFDC absent parents

     (about 70 percent) show no earnings reported to the SSA in

     the three years examined in this study.    Only 17 percent of
     the study population earned. over $10, 000 in all three years
     and even smaller percentages earned over $10, 000 in one year

     or in each of two years (percentages cannot be computed from

     the text). Very few, only about five percent, showed

     substantial earnings gains during the period and the modal

     income is substantially lower than the average income.
     Also, it is not clear from the findings whether the AFDC

     absent fathers who did have employment for two or more years

     remained at the same job and/or same location over that

     period of time.


     The findings regarding IV-D action on the 1, 277AFDC absent
     parents with earnings in 1985 need to be clarified.


     First, the numer of cases in each category (paternity,
     modification, arrears) and the numer of cases which remain
     open as AFDC cases and non-AFDC cases need to be provided in

     order to make the percentage more meaningful. For example,
     under the paternity section, it is not clear how many cases

     remain open and how many of those are still AFDC   cases. It
     is also not clear how many of the " referred" cases still had

     earnings by the time the cases were referred.

     Second, use of averages can be very misleading when

     ascertaining how much could be obtained in child support

     collections. Some studies conducted before mandatory

     quidelines went into place indicated that low-income fathers

     tended to pay a higher proportion of earnings in child

     support than did higher-income fathers (Sonenstein and

     Calhoun, 1988 and Garfinkel and Wong, 1987). It would be

     more germne to indicate what proportion of men were paying
     within $10-$15 of the " simulated" quideline amount. It is
     also important to note that for a numer of states, the
      rate" used in the child support calculation is not a flat

     rate as it is in Wisconsin, but tends to decrease as income

     increases.
     Third, the " arrears"discussion needs to indicate if all
     cases with earnings were amenable to wage witholding.
     Additionally, the same period of time should be used when

     comparing arrears collected and not collected. It is not

Page 3 - Richard P. Kusserow



    possible to tell whether the time frame being used is 1985­

    1990 or 1985-1987. It is also not clear in how many cases

    arrearages were building during a period when the AFDC

    absent father had no reported earnings.

     In sum, the report should be careful not to imply that the

     IV-D agencies were not responsive to the information

     provided by the IG, when all the facts are not known or at

     least not presented.


Recommendations
While we agree that automated data matches can provide important

information necessary to work some cases, it would appear

unrealistic, potentially costly, and unnecessary to perform

annual data matches with SSA or IRS on every child support case

in the system. Such matches would produce a glut of information

which is out-of-date and not relevant to the next action needed

on most cases. The performance standards, which went into effect

in October of 1990, require that all cases where absent parents

cannot be located be referred to the FPLS annually to try to

obtain information sufficient to locate the absent parent. The
FPLS has access both to SSA and IRS information. For other
activities such as enforcement and establishment, the information

available through state sources, such as the Department of Motor

Vehicles or State Employment Agencies, would provide much more

relevant and up-to-date information.

The recommendations should include a discussion of potential

costs and benefits of performing such extensive matches. While
such data matches are usually not expensive on a per case basis,
it seems excessive to ru   annual matches to locate the 2 out of
  637 absent parents who have unusually high earnings. This

comes to a hit rate of less than 1/2 of 1 percent for individuals

with incomes over $50, 000 per year and a hit rate of less than 10

percent for parents with incomes over $30, 000 per year. The cost
to the states and Federal Governent would have to be minimal or
the increase in AFDC child support collections would have to be

substantial in order for the benefits to exceed the  costs.  Note
that costs of preparing information for a data tape and of

reviewing the informtion from the SSA files to determine if it
is more recent than anyting else in   the file would have to be
included in any discussion of cost.
Page 4 - Richard P. Kusserow



The second recommendation should be       deleted.
                                               Through the audit,
OCSE is already responsible for ensuring that states act in a

timely and appropriate manner to obtain information and to

establish and enforce child support       orders.
                                              Since it is unclear
that the annual match information is " complete, accurate, or up-

to-date, " requiring its use could be counterproductive.
If you have any questions, please call Jane Baird at   245-2409.



                     Aal    l:? A,y

                                in    Gerry




                                     A­
...



      'Clr,


                     DEPARTMENT OF HEALTH II HUMAN SERVICES                                    Qfof the Secet
                                                                                               Washington ,   D. C.   20201




              MEMORAUM TO                         TH INSPECTOR GENERA

              From                     Kevin E. Moley                          fJ,

                                       Assistant Secreta for               Manag     ent and Budget

              Subj ect: OIG Draft Report: "Follow-Up on AFDC Absent                                     Parents,        II.

                                       OEI-05-89-01270

              We have reviewed the draft report entitled, "Follow-Up on AFDC

              Absent Parents " and have several concerns. These are discussed
              below:
              Cost
              We are concerned that the report does not contain cost data or

              cost- effectiveness measures for the annual matches in which                                      all
              states would be required to                             participate. In
                                                            the absence of such
              information, it is difficult to know if these approaches are

              justified--especially for every IV-D case in the nation--or if

              they are as effective as other matches available to the States.
              Given this, it seems questionable to require that all states

              participate in  annual matching specifically against the IRS and
              SSA data bases, especially in light of how few absent parents in
              AFDC cases have earnings of a magnitude to make pursuit

              worthwhile.
              We believe that the report should address the fact that cost                                            data
              is not available at this time for these matches.

              Aae of the Data

              We are also concerned that the information contained in the SSA

                                                                                                   in     other
                                                                      access.
              and IRS data bases is relatively old compared to that

              data bases which States can          The age of this data reduces
              its utility to IV-D agencies for locate purposes, and makes

              follow-up difficult.


              Compounding this problem, the OIG used 1985 data to do its 1987
              study, and data for 1986, 1987, and 1988 for its 1990 study.
              Thus, when States received information to follow-up, it was

              already an additional two or more years out of        This                   date.
              appears to largely account for the low numer of actions States
              were able to take after receiving the data: state inaction does

              not appear to be the problem. The report needs to clarify that
              this was the case. Similarly, the methodology should note that
              matches for the same individual across several years were only

              available for a small percentage of the caseload examined. This
                                                                          A­
Page2 - Memorandum to the Inspector General


should be highlighted to offset the perception likely to be

obtained by the casual reader that far more absent parents have

earnings than actually do.
This suggests, again, that matching against the SSA and IRS data

bases may be another tool for some cases, but not necessarily a

tool with universal applicability.
Redundancy
Third, we would note that since the original study was done,   the
Family Support Act has been passed and the Child Support

standards for Program Operations regulations publ ished.

Under the Standards for Program Operations regulations, published

in August, 1989, all States are already required, at least

annually, to submit to the Federal Parent Locator Service (FPLS),
which includes the IRS and SSA data bases, cases in which

location is needed and for which previous attempts at location

have failed. Thus, states are already required to do some

referral to the recommended data bases, largely removing the need

to mandate a new national matching program.


Also as a result of the new law and regulations , states are now

required to review and modify child support cases on a reqular

basis, and to use state quidelines to set support levels.   States
must also take appropriate actions in establishing paternity, and

locating absent parents and enforcing support orders within

specific timeframes. Together, we believe that the statute and
the regulations obviate the need for the report' s second

recommendation, that OCSE ensure that IV-D agencies use

information garnered from the matches to establish, modify and

enforce court orders.
                 APPENDIX 

OFFCE OF INSPECfOR   GENE REPONSE TO AGENCY COMM
REONSE TO ACF        COMM
While supporting the need for a systematic review of location and asset information
ACF does not support t e recommendation for an annual review since it goes
beyond the scope of the Family Support Act of 1988. The ACF feels that access to
this information through the Federal Parent Locator Servce (FPLS), and through
Project 1099 , a way of accessing IRS information , should provide the information
IV- D agencies need.

However , both of these efforts limit the data available to IV- D agencies. The FPLS
is limited in the total number of cases it can process , and in the number of
crossmatches it can perform. Project 1099 puts restrictions on the use of its
information , so its diminished value in establishing or modifyg court orders
mitigates against its use for this purpose.

We feel an annual data match is vital to enforcing the Child Support Enforcement
Amendments of 1984 , which requires mandatory wage withholding of child support
where the support is at least 30 days in arrears. These amendments also provided
that health insurance for chidren be provided where the absent parent has access to
that coverage. The curent requiement that States make an annual attempt to locate
absent parents falls short of gatherig the data necessary to impose wage
withholdig, or establish health insurance for AFDC children. We believe that an
annual data match might. replace the current requirement since it provides more
information to the IV- D   agency.

REONSE TO ASPE         COMM
In order to judge whether IV-D agencies had sufcient time to take action on the
cases provided them in 1987 , the ASPE wished to know when our review took place.


             We requested the SSA earngs records in 1988, with 1986 and 1987
             data then available. Our on-site review at the State IV-D agencies did
             not take place until the sumer of 1990. The IV-D agencies had at
             least 2 1/2 years to take action on the cases referred to them.

The age of the inormation given      to the IV- D   agencies is also questioned by ASPE.

              Our view is that this follow-up report shows how extremely valuable
              this inormation is. Once absent parents reach a certain level of
              income , the tendency is to maintain that level of earngs.
The ASPE suggests that our first finding could have pointed out that 69 percent of
the AFDC absent parents did not have income over $10 000 , and that very few
earned over $10 000 each year.


             This is not correct since we were reporting only on . " hard-core " AFDC
             cases , at least 2 years old , where there was no court order , or the
             monthly court order was $50 or less per child , or where arrears existed.
             As our initial series of studies demonstrated , these cases were not being
             pursued at all by the IV- D agencies , since they were not considered to
             be " productive " cases.

             Our intent is to demonstrate that through the use of a data match
             IV- D agencies would be able to locate those absent parents   with the
             abilty to contribute   toward their AFDC children, through cash and
             medical insurance.

             If all AFDC absent parents were included in our inspection , we would
             have expected to fid a much larger percentage of absent parents
             earning over the threshold amount.



The ASPE suggests that the actual number of paternty,     modification and arrears
cases be provided instead of percentages.

             Some cases overlapped categories (e.g. ,   modication and arrears),   so
             the actual numbers were omitted to avoid confsion that might occur
             when the total of the individual categories would exceed the 1 277
             actual absent parents reviewed.



The ASPE comments that using averages of earngs can be misleadig in
determg the amount of a court order, and that in actual percentages, low-income
fathers tended to pay more in chid support that higher income fathers.

             We used a very simple formula purely as an ilustration. We applied
             the formula only to cases where the absent parent earngs suggested a
             chid support order approxiately three times or greater than the
             curent order. We did not study the phenomenon of disproportionate
             percentages suggested by ASPE.
The ASPE suggests that cases in arrears where the absent parent is working may not
be " amenable " to wage withholding.

             The Child Support Enforcement Amendments of 1984 require
             immediate wage withholding on cases where the child support is
             30 days in arrears , and make no provision for determining " amenable
             cases.

The ASPE suggests the time frame for computing arrears was unclear.

             Chart 4 shows the actions taken on cases from the time we origially
             gathered data to our on-site review of the same cases in
             mid- 1990.

The ASPE states there is no way to tell if arrears accrued during a period when the
absent parent had no earnngs.

             Ths study does not attempt to capture that data.
The ASPE questions the value of pursuig these cases in this manner.

             As OCSE has shown , the age of recently-obtained SSA data is
             irelevant since it coincides with the quarterly State wage inormation in
             more than 80 percent of the cases. Whe we support the use of any
             complete and current data to accomplish a systematic review of chid
             support cases ,   there are limitations to the FPLS , IRS , and State wage
             information. We suggest the SSA data as one alternative that avoids
             the pitfalls associated with other sources.

             We have not performed a cost-benefit analysis. However, based on our
             1987 studies, we estimate that AFDC chid support collections would
             increase by more than $307 mion annually. Of that annual increase
             the Federal share would be $103 mion.

The ASPE suggests                  recommendation that calls for OCSE to
                      delethtg the fial
monitor the data match though the audit process.

             We feel that when a systematic data match is requied for
             agencies , OCSE should have the responsibilty to ensure compliance
             and that appropriate action is taken on cases identifed.




                                           B-4
REONSE TO ASMB           COMM
The age of the informati m given to the IV- D agencies is questioned by ASMB.

             Our view is that this follow-up report shows how extremely valuable
             this information is. Once absent parents reach a certain level of
             income , the tendency is to maintain that level.

The ASMB comments that without cost data and cost-effectiveness measures being
provided , it is questionable that the earnngs of AFDC absent parents are suffcient
to make their pursuit worthwhile.

             We have not performed a cost- benefit analysis. However , based on our
             1987 studies, the annual AFDC child support collections would increase
             by more than $307 milion. Of that the Federal share would be $103
             millon.

The ASMB feels that due to the OCSE performance standards , and the Family
Support Act of 1988 ,   the recommendations may be redundant.
             We feel that without an annual data match , State IV-D agencies wil
             waste valuable time pursuig location leads where there is no chance at
             all to establish , collect or modi court orders. At present , an annual
             FPLS match gives IV- D agencies a plethora of data with no way to
             judge which lead is important.

             The annual data match we propose wi obtain the same location
             information for the absent parent,
                                              with the added benefit of
             distingushig which absent parent had no earngs and which one had
             earned $25 00 annualy each of the last 3 years.




                                         B - 5

